APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Memorandum Opinion of the United States
Court of Appeals for the Ninth Circuit
(July 31, 2020) .................................................... 1a
Order of the United States District Court
for the Central District of California
(October 15, 2018) ............................................ 10a
REHEARING ORDER
Order of the United States Court of Appeals
for the Ninth Circuit Denying Petition
for Rehearing En Banc (September 10, 2020) . 35a
STATUTORY PROVISIONS
Texas Civil Practice and Remedies Code,
Relevant Sections ............................................. 37a

App.1a
MEMORANDUM OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
(JULY 31, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
STEPHANIE CLIFFORD, AKA STORMY DANIELS,

Plaintiff-Appellant,
v.
DONALD J. TRUMP,

Defendant-Appellee.
________________________
No. 18-56351
D.C. No. 2:18-cv-06893-SJO-FFM
Appeal from the United States District Court
for the Central District of California
S. James Otero, District Judge, Presiding
Before: THOMAS, Chief Judge, and WARDLAW
and NGUYEN, Circuit Judges.
Stephanie Clifford appeals the district court’s
dismissal of her defamation action against President

 This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App.2a
Donald J. Trump. 1 We have jurisdiction under 28
U.S.C. § 1291. Reviewing de novo, we affirm.
1. The district court correctly concluded under the

Erie doctrine that the motion to dismiss procedures

of the Texas Citizens Participation Act (TCPA)—
Texas’s version of an anti-SLAPP law—apply in
federal court. We have long held that analogous procedures in California’s anti-SLAPP law apply in federal
court, United States ex rel. Newsham v. Lockheed
Missiles & Space Co., 190 F.3d 963, 973 (9th Cir. 1999),
and the TCPA is indistinguishable from California’s
law in all material respects, compare S & S Emergency
Training Sols., Inc. v. Elliott, 564 S.W.3d 843, 847 (Tex.
2018) (describing the TCPA analysis), with Oasis W.
Realty, LLC v. Goldman, 51 Cal. 4th 811, 820 (2011)
(describing California’s anti-SLAPP analysis).
Though we recognize the Fifth Circuit recently
held that the TCPA does not apply in federal court,
Klocke v. Watson, 936 F.3d 240, 244-47 (5th Cir. 2019),
the reasoning of the Fifth Circuit’s opinion cannot be
reconciled with our circuit’s anti-SLAPP precedent,
compare Newsham, 190 F.3d at 972 (“[T]here is no
indication that [Federal Rules of Civil Procedure] 8, 12,
and 56 were intended to ‘occupy the field’ with respect
to pretrial procedures aimed at weeding out meritless
claims.”), with Klocke, 936 F.3d at 247 (“Rules 8, 12,
and 56 provide a comprehensive framework governing
pretrial dismissal and judgment.” (cleaned up)). We
are bound to follow our own precedent, which requires

1 Because the operative complaint names President Trump in
his personal capacity, the remainder of this disposition refers to
the parties as Ms. Clifford and Mr. Trump.

App.3a
us to apply the TCPA.2 Miller v. Gammie, 335 F.3d
889, 892-93, 900 (9th Cir. 2003) (en banc).
Because the TCPA motion in this case challenged
the legal sufficiency of the allegations in the complaint,
we “apply the Federal Rule of Civil Procedure 12(b)(6)
standard and consider whether a claim is properly
stated.” Planned Parenthood Fed’n of Am., Inc. v. Ctr.
for Med. Progress, 890 F.3d 828, 834 (9th Cir. 2018).
2. The elements of a defamation claim under
Texas law are (1) “the publication of a false statement
of fact to a third party,” (2) “that was defamatory
concerning the plaintiff,” (3) made with actual malice,3
and (4) damages, in some cases. In re Lipsky, 460
S.W.3d 579, 593 (Tex. 2015). We conclude, like the
district court, that the complaint failed to plausibly
allege an actionable false statement of fact, though
for slightly different reasons.
As alleged in the complaint, Ms. Clifford began
an intimate relationship with Mr. Trump in 2006. Five
years later, in 2011, Ms. Clifford agreed to cooperate
with a magazine that intended to publish a story about
the relationship. Ms. Clifford alleges that a few weeks
after she agreed to assist with the magazine story,
she was approached by an unknown man in a Las
2 We do not consider Ms. Clifford’s argument, raised for the first
time in her reply brief on appeal, that applying the TCPA would
violate the Seventh Amendment. Brown v. Rawson-Neal Psych.
Hosp., 840 F.3d 1146, 1148 (9th Cir. 2016) (“We generally do not
consider issues that are not raised in the appellant’s opening
brief.”).
3 Actual malice is required because Ms. Clifford has not disputed
that she is a public figure. In re Lipsky, 460 S.W.3d 579, 593
(Tex. 2015).

App.4a
Vegas parking lot who told her “Leave Trump alone.
Forget the story,” and threatened that harm would
come to her if she continued to cooperate with the
magazine. Ultimately, the story was not published.
In 2018, after Mr. Trump became President, Ms.
Clifford went public with her account of this incident.
With the assistance of a sketch artist, she prepared a
composite sketch of the man from the parking lot,
which was disseminated publicly.
Ms. Clifford’s defamation claim is based on a tweet
Mr. Trump published about the composite sketch.
Shortly after the sketch was released, a Twitter user
unrelated to the parties here tweeted the sketch
juxtaposed with a photograph of Ms. Clifford’s exhusband, with a mocking message suggesting that the
two men resembled one another. Mr. Trump retweeted
this tweet, adding his own message: “A sketch years
later about a nonexistent man. A total con job, playing
the Fake News Media for Fools (but they know it)!”
The two tweets appeared together as depicted
below:4

4 Mr. Trump’s unopposed request that we consider the screenshot
of the tweet is granted. The screenshot is properly before us
because the tweet is described in the complaint and forms the
basis of the defamation claim. See Khoja v. Orexigen Therapeutics,
Inc., 899 F.3d 988, 1002 (9th Cir. 2018).

App.5a

Ms. Clifford responded by filing this suit, alleging
that Mr. Trump’s tweet is defamatory.
Under Texas law, as informed by the Supreme
Court’s First Amendment jurisprudence, “statements
that are not verifiable as false are not defamatory.
And even when a statement is verifiable, it cannot
give rise to liability if the entire context in which it
was made discloses that it was not intended to assert
a fact.” Dallas Morning News, Inc. v. Tatum, 554
S.W.3d 614, 638 (Tex. 2018) (cleaned up). Texas law
refers to statements that fail either test—“verifiability
or context”—as “opinion[s].” Id. The determination
of whether a statement is “reasonably capable of a
defamatory meaning” focuses on how the statement
would be interpreted by an “objectively reasonable
reader.” Id. at 624, 631.
Ms. Clifford advances two arguments for why the
tweet at issue is defamatory. First, citing the Black’s
Law Dictionary definition of “confidence man,” she
argues that the use of the term “con job” implied that

App.6a
she had literally committed the crime of fraud. But it
would be clear to a reasonable reader that the tweet
was not accusing Clifford of actually committing
criminal activity. See id. at 638. Instead, as used in
this context, the term “con job” could not be interpreted as anything more than a colorful expression
of rhetorical hyperbole. Greenbelt Coop. Publ’g Ass’n
v. Bresler, 398 U.S. 6, 13-14 (1970) (description of the
plaintiff’s negotiating position as “blackmail” could
not reasonably be interpreted as having accused him of
committing the crime of blackmail); see also Milkovich
v. Lorain J. Co., 497 U.S. 1, 16-17 (1990). Because the
tweet could not reasonably be read as asserting that
Ms. Clifford committed a crime, this theory of defamation is not viable. Tatum, 554 S.W.3d at 638; see also
Bresler, 398 U.S. at 13-14.
Next, Ms. Clifford argues that the tweet is defamatory because it accused her of lying about having been
threatened because of her participation in a magazine
story about her relationship with Mr. Trump. We
agree that this is a reasonable interpretation of the
tweet, but conclude that it is not actionable.
Under Texas law, a statement that merely interprets disclosed facts is an opinion, and, as noted,
statements of opinion cannot form the basis of a
defamation claim. Tatum, 554 S.W.3d at 639-40.
Viewed through the eyes of an objectively reasonable
reader, the tweet here reflects Mr. Trump’s opinion
about the implications of the allegedly similar appearances of Ms. Clifford’s ex-husband and the man in
the sketch. Mr. Trump’s reference to a “sketch years
later of a nonexistent man” signals that the allegedly
defamatory conclusion that followed-that Ms. Clifford
was pulling a “con job” and “playing the Fake News

App.7a
Media for Fools”—plainly concerns the similarities
between the sketch and the photograph of Ms. Clifford’s
ex-husband. Because the tweet juxtaposing the two
images was displayed immediately below Mr. Trump’s
tweet, the reader was provided with the information
underlying the allegedly defamatory statement and was
free to draw his or her own conclusions. Moreover,
the tweet does not imply any undisclosed facts.
Accordingly, the tweet, read in context, was a nonactionable statement of opinion. Id.; Fox Ent. Grp.,
Inc. v. Abdel-Hafiz, 240 S.W.3d 524, 560 (Tex. App.
2007) (“[T]here is no defamation liability for a statement
of opinion when a report sets out the underlying facts
in the publication itself, thereby allowing the listener
to evaluate the facts and either accept or reject the
opinion.” (citing Brewer v. Capital Cities/ABC, Inc., 986
S.W.2d 636, 643 (Tex. App. 1998)).
Resisting this conclusion, Ms. Clifford argues that
the tweet is reasonably construed as disputing not
only her account of having been threatened over her
cooperation with the magazine but also her broader
allegation that she had an intimate relationship with
Mr. Trump. Construed this way, Ms. Clifford contends
that the tweet is actionable because a reasonable
reader would appreciate that Mr. Trump had personal knowledge about whether there had in fact
been a relationship, such that the tweet would be
understood as a statement, based on undisclosed
facts, that Ms. Clifford had fabricated her account of
the relationship. We find this argument unpersuasive.
As an initial matter, in evaluating whether Ms.
Clifford adequately pleaded a defamation claim, we are
limited to the allegations in the complaint. Koala v.
Khosla, 931 F.3d 887, 894 (9th Cir. 2019). The opera-

App.8a
tive complaint specifically alleges that Mr. Trump’s
tweet was defamatory because it “falsely attack[ed]
the veracity of Ms. Clifford’s account of the threatening
incident that took place in 2011.” Nowhere does the
complaint allege that the tweet was instead addressing
Ms. Clifford’s allegations about her relationship with
Mr. Trump. This theory is therefore not before us.
More importantly, even if this theory had been
properly presented, we do not believe the tweet could
be reasonably read as addressing Ms. Clifford’s account
of her relationship with Mr. Trump. The tweet did
not reference the alleged relationship and instead
focused on the sketch of the ostensibly “nonexistent
man.” This was plainly a reference to Ms. Clifford’s
account of having been threatened by a man in a Las
Vegas parking lot. It follows that the statement in
the following sentence that Ms. Clifford was pulling a
“con job” and “playing the Fake News Media for Fools”
was referring to her account of that same incident,
not more broadly to other, unreferenced, statements
by Ms. Clifford about the alleged relationship.
Because the complaint failed to plead an actionable
false statement, the district court correctly granted
the motion to dismiss.5
3. The district court did not abuse its discretion
by denying leave to amend the complaint. See Parents
for Privacy v. Barr, 949 F.3d 1210, 1221 (9th Cir.
2020). Amendment would have been futile because

5 In light of our conclusion, we do not address whether the
complaint adequately pleaded actual malice. We also need not,
and do not, address the district court’s conclusion that Ms.
Clifford presented herself as a “political adversary” of Mr. Trump.

App.9a
the tweet is not defamatory as a matter of law. See
id. at 1239.
AFFIRMED.

App.10a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA
(OCTOBER 15, 2018)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES-GENERAL
________________________
STEPHANIE CLIFFORD
v.
DONALD J. TRUMP
________________________
Case No.: CV 18-06893 SJO (FFMx)
Before: The Honorable S. James OTERO, United
States District Judge.
Proceedings (in chambers): Order Granting Defendant
Donald J. Trump’s Special Motion to Dismiss/Strike
Complaint [Docket No. 28]; Order Denying as Moot
Defendant Donald J. Trump’s Alternative Motion to
Dismiss Complaint [Docket No. 28]
This matter is before the Court on Defendant
Donald J. Trump’s Special Motion To Dismiss/Strike
Plaintiff Stephanie Clifford’s Complaint Pursuant To
Anti-SLAPP Statute (“Special Motion”) Or Alternatively
Defendant’s Motion To Dismiss Complaint Pursuant
To FRCP 12(b)(6) (“Motion”), filed August 27, 2018.
Plaintiff opposed the Special Motion and the Motion
(“Opposition”) on September 3, 2018. Plaintiff replied

App.11a
(“Reply”) on September 10, 2018. The Court held
argument on the Special Motion and the Motion on
September 24, 2018. (See Transcript of Proceedings,
ECF No. 34.) For the following reasons, the Court
GRANTS Defendant’s Special Motion To Dismiss/
Strike. The Court DENIES AS MOOT Defendant’s
alternative Motion To Dismiss.
I.

Factual and Procedural Background
A. Plaintiff’s Allegations in the Operative
Complaint

Plaintiff Stephanie Clifford filed the operative
Complaint against Defendant Donald J. Trump on
April 30, 2018 in the Southern District of New York.
In the Complaint, Ms. Clifford alleges as follows.
Ms. Clifford began an intimate relationship with
Mr. Trump in the summer of 2006. (Compl. ¶ 5, ECF
No. 1.) In May of 2011, she agreed to cooperate with In
Touch Magazine in connection with an article about
her relationship with Mr. Trump. (Compl. ¶ 6.) She
agreed to speak to the magazine after her ex-husband
approached the magazine without her approval.
(Compl. ¶ 6.) A few weeks after agreeing to speak to
the magazine, a man approached and threatened Ms.
Clifford in Las Vegas, Nevada. (Compl. ¶ 7.) The man
purportedly approached Ms. Clifford, threatened Ms.
Clifford’s daughter, and told her to “Leave Trump
alone. Forget the story.” (Compl. ¶¶ 8-9.)
After Mr. Trump was elected President of the
United States on November 8, 2016, Ms. Clifford
worked with a sketch artist to render a sketch of the
person who had purportedly threatened her in 2011.

App.12a
(Compl. ¶ 14.) Ms. Clifford released the sketch publicly
on April 17, 2018. (Compl. ¶ 14.)
The next day, on April 18, 2018, Mr. Trump, from
his personal Twitter account (@RealDonaldTrump),
posted a purportedly false statement regarding Ms.
Clifford, the sketch, and Ms. Clifford’s account of the
threatening incident that took place in 2011. (Compl.
¶ 15.) Mr. Trump’s tweet read as follows: “A sketch
years later about a nonexistent man. A total con job,
playing the Fake News Media for Fools (but they know
it)!” (Compl. ¶ 15.) Mr. Trump posted this tweet in
response to another tweet posted by an account named
DeplorablyScottish (@ShennaFoxMusic), which showed
side-by-side images of the sketch released by Ms.
Clifford and a picture of Ms. Clifford and her husband.
(Compl. ¶ 16.)
Based on this tweet, Ms. Clifford brings the instant
lawsuit against Mr. Trump for defamation. (See Compl.
¶¶ 21-38.) She argues that Mr. Trump’s tweet attacks
the veracity of her account of the threatening incident
that took place in 2011. (Compl. ¶ 17.) She also contends
that Mr. Trump’s tweet suggests that she is falsely
accusing an individual of committing a crime against
her. (Compl. ¶ 17.) According to Plaintiff, “Mr. Trump
meant to convey that Ms. Clifford is a liar, someone
who should not be trusted, that her claims about the
threatening encounter are false, and that she was
falsely accusing the individual depicted in the sketch
of committing a crime, where no crime had been
committed.” (Compl. ¶ 28.) As a result, she contends
that Mr. Trump’s tweet was false and defamatory,
and that the tweet was defamation per se because it
charged her with committing a serious crime. (Compl.
¶¶ 17, 19.)

App.13a
Ms. Clifford goes on to claim that Mr. Trump acted
with actual malice in issuing the tweet because he
knew the falsity of his tweet. This is because, according
to Ms. Clifford, the person who threatened her in
2011 acted at the direction of Mr. Trump or Mr.
Trump’s attorney, Michael Cohen. (Compl. ¶ 31.) In
the alternative, she contends that Mr. Trump acted
with reckless disregard for the truth or falsity of his
tweet because he had no way of knowing whether the
2011 incident had occurred. (Compl. ¶ 32.)
Finally, Ms. Clifford contends that she suffered
damages as a result of the tweet because Mr. Trump’s
statement exposed her to “hatred, contempt, ridicule,
and shame, and discouraged others from associating
or dealing with her.” (Compl. ¶ 33.) Therefore, she
“has suffered damages in an amount to be proven at
trial, including but not limited to, harm to her
reputation, emotional harm, exposure to contempt,
ridicule, and shame, and physical threats of violence
to her person and life.” (Compl. ¶ 34.) Mr Clifford
claims that she has retained the services of professional
bodyguards and other protective services because of
the threats that she has received. (Compl. ¶ 36.)
B. Procedural History
Ms. Clifford first brought this lawsuit in the
United States District Court for the Southern District
of New York. She initially contended that venue was
appropriate in the Southern District of New York
because it is the district in which Mr. Trump resides.
(Compl. ¶ 4.)
On July 23, 2018, Mr. Trump filed a motion to
transfer the case from the Southern District of New
York to this Court pursuant to 28 U.S.C. § 1404(a).

App.14a
(See Motion To Transfer, ECF No. 11.) Defendant
argued in part that this lawsuit relates to other
litigation before this Court involving Plaintiff and
Defendant concerning the enforceability of a non-disclosure agreement. (See Memorandum In Support of
Motion To Transfer at 1, ECF No. 11-1.)
Plaintiff initially opposed the transfer, arguing in
part that the instant action was not closely related to
the other litigation before this Court. ( See Response
In Opposition To Motion To Transfer, ECF No. 13 at
1.) After a meet and confer process, Plaintiff and
Defendant jointly agreed to transfer Plaintiff’s defamation case to this Court. On August 8, 2018, the district
court in the Southern District of New York granted
Plaintiff and Defendant’s joint stipulation to transfer.
(See ECF No. 17, ECF No. 18.)
On August 27, 2018, Defendant brought the
instant Special Motion To Dismiss/Strike Plaintiff’s
Complaint. In the Special Motion, Defendant contends
that Ms. Clifford’s Complaint fails to state a cause of
action for defamation because (1) Mr. Trump’s tweet
is a protected opinion, (2) Ms. Clifford did not suffer
damages as a result of the tweet, and (3) Mr. Trump
did not act with malice or reckless disregard for the
truth when he issued the tweet. (See Special Motion
at 1.) Defendant argues that Ms. Clifford’s lawsuit is
a Strategic Lawsuit Against Public Participation
(“SLAPP”). (See id.)
The Court held argument on September 24, 2018
and subsequently submitted this matter.

App.15a
II.

Analysis
A. Choice of Law

Before addressing the substance of Defendant’s
Special Motion To Dismiss/Strike, this Court must
decide which state’s substantive law governs its analysis. Applying New York choice-of-law principles,
Defendant argues that the Texas Citizens Participation
Act (“TCPA” or “Texas Anti-SLAPP statute”) governs
this case. ( See Special Motion at 7-9.) Plaintiff
disagrees, arguing that New York’s anti-SLAPP law
governs this dispute because Mr. Trump is a citizen
of the state of New York. (See Opposition at 8.)
The Court applies the Texas anti-SLAPP statute
because Ms. Clifford brought this diversity action in
the Southern District of New York, and a state court
in New York would apply the TCPA to this case.
1. New York Choice-of-Law Provisions
Govern This Court’s Analysis of Defendant’s Special Motion
“For the convenience of parties and witnesses, in
the interest of justice, a district court may transfer
any civil action to any other district or division where
it might have been brought.” 28 U.S.C. § 1404(a). In
Van Dusen v. Barrack, the United States Supreme
Court held that where a defendant seeks to transfer
an action to another district court in the country,
“the transferee district court must be obligated to
apply the state law that would have been applied if
there had been no change of venue.” 376 U.S. 612,
639 (1964). In Ferens v. John Deere Company, the
Supreme Court extended this rule to those cases

App.16a
where a plaintiff initiates a transfer. 494 U.S. 516,
525 (1990).
Ms. Clifford, a citizen of the state of Texas, brings
this defamation action against Mr. Trump, a citizen
of the state of New York.1 This Court has diversity
jurisdiction under 28 U.S.C. Section 1332. The instant
case is a diversity action transferred to this Court from
the Southern District of New York with the consent
of both parties. Therefore, the Court applies New York
choice-of-law principles to determine which forum’s
substantive law governs the Court’s analysis of the
Special Motion To Dismiss/Strike.
2. Under New York Choice of Law Principles, Texas Law Applies to Plaintiff’s
Allegations of Defamation and the
Special Motion to Dismiss/Strike
Under New York’s choice-of-law principles, the law
of the situs of the injury generally applies to a tort
lawsuit involving diverse parties. See Stoyanovskiy
v. Amerada Hess Corp., 286 A.D.2d 727, 728 (2001).
However, in this day and age, with the publication of
statements in online fora, the tort of defamation
often involves a plaintiff injured in several jurisdictions.
For multistate defamation actions, where the situs of
the injury may be in multiple jurisdictions, “New
York applies the law of the state with the most
significant interest in litigation,” which generally is
the state where a plaintiff is domiciled. See Lee v.
1 Defendant Mr. Trump argues that he is a citizen of Washington
D.C. because he resides at the White House, not in New York city.
For purposes of the Court’s choice-of-law analysis here, the Court
is required to apply Texas law to Ms. Clifford’s defamation action,
whether Mr. Trump is a citizen of New York or Washington D.C.

App.17a

Bankers Trust Co., 166 F.3d 540, 545 (2d. Cir. 1999).
Plaintiff alleges in the Complaint that Ms. Clifford is
a “resident of the State of Texas,” (Compl. ¶ 1), and
conceded during argument on September 24, 2018
that Ms. Clifford is domiciled in Texas. (See Transcript
of Proceedings at 11: 7.) Therefore, this Court applies
Texas law to Plaintiff’s allegations of defamation and
Defendant’s Special Motion To Dismiss/Strike.2
The Restatement (Second) Conflicts of Law supports this Court’s holding that Texas law applies. In
defamation lawsuits involving “multistate communication,” a court must apply “the local law of the state
where the plaintiff has suffered the greatest injury
by reason of [her] loss of reputation,” which “will
usually be the state of the plaintiff’s domicile if the
matter complained of has there been published.”
Restatement (Second) of Conflict of Laws § 150 (1971).
B. Defendant’s Special Motion to Strike/Dismiss
Is Analogous to a Motion to Dismiss Under
Federal Rule of Civil Procedure 12(b)(6)
Having concluded that the TCPA applies to the
Complaint and the Special Motion, the Court next
determines if it is appropriate to adjudicate the
Special Motion at the present stage of litigation
before any discovery has taken place. Plaintiff argues
2 In analyzing Defendant’s Special Motion To Dismiss/Strike
under the TCPA, the Court borrows from courts’ analysis of
California’s anti-SLAPP statute. “The California statute—section
425.16 of the California Code of Civil Procedure—was one of the
earliest ‘anti-SLAPP’ laws and has been a primary model or
influence on similar laws subsequently enacted in other states,
including, directly or indirectly, the TCPA.” Serafine v. Blunt,
466 S.W.3d 352, 386 (Tex. App. 2015).

App.18a
that Mr. Trump’s Special Motion should be adjudicated
as a motion for summary judgment. (See Opposition
at 5-6; Transcript of Proceedings at 15:3-16:6, 17:5-24.)
If this were the case, the parties would be permitted
to pursue discovery prior to a ruling on the Special
Motion. Plaintiff’s argument, however, has no merit.
For purposes of the Federal Rules of Civil Procedure, a motion brought on anti-SLAPP grounds can
either be analogous to a motion to dismiss or a
motion for summary judgment. If a defendant moves
to strike/dismiss based on purely legal arguments
and the fact that a complaint does not allege sufficient
facts to support its stated causes of action, this Court
analyzes the motion under the standards set out in
Federal Rule of Civil Procedure 8 and 12(b)(6). See

Planned Parenthood Fed’n of Am., Inc. v. Ctr. for Med.
Progress, 890 F.3d 828, 833-34 (9th Cir. 2018). If a
defendant makes a factual challenge to a complaint,
including by providing alternate facts to challenge
the allegations in a complaint, this Court treats the
motion to strike/dismiss as a motion for summary
judgment. See id.
Here, Mr. Trump’s Special Motion is analogous
to a motion to dismiss because it makes three main
arguments, all of which assume the truth of the
allegations in the Complaint and ask this Court to
dismiss Plaintiff’s action because these facts do not
sustain a cause of action for defamation. First,
Defendant argues that although Plaintiff alleges that
the President made a defamatory statement in a
tweet,3 the statement, as alleged in the Complaint, is

3 For purposes of arguing the Motion To Strike/Dismiss, Defendant
accepts that Mr. Trump sent the tweet stating “A sketch years
later about a nonexistent man. A total con job, playing the Fake

App.19a
a constitutionally-protected opinion. (See Special Motion
at 9-10.) Second, Defendant argues that Plaintiff has
not sufficiently alleged damages as a result of Mr.
Trump’s purported defamation because the damages
that she suffered could have arisen from an alternate
cause. (See Special Motion at 11-14.) Third, Defendant
argues that Plaintiff has not alleged sufficient facts
to show that Mr. Trump acted with actual malice or
reckless disregard for the truth, aside from Plaintiff’s
conclusory statements that Mr. Trump had knowledge
of the threat that Plaintiff received in 2011. (See
Special Motion at 14-16.) Each of these arguments
largely assume the truth of the Complaint, but nevertheless make the point that the Complaint does not
allege sufficient facts to meet each prong of the defamation standard.
In addition to these three arguments, Defendant’s
Special Motion sets forth some facts beyond those
alleged in the Complaint.4 For example, Defendant
argues that Ms. Clifford did not sufficiently allege that
she suffered damages because, in fact, she benefitted
economically from Mr. Trump’s defamatory statement.
To prove this, Defendant points to evidence outside
News Media for Fools (but they know it)!” Defendant assumes
that Mr. Trump issued this tweet and argues that Plaintiff
cannot sue Defendant for defamation based on the content of
the tweet.
4 Plaintiff and Defendant have filed evidentiary objections to
several of the factual submissions. In doing so, both parties
correctly point out that this Court should not take into account
facts outside the Complaint in deciding this Special Motion.
Aside from otherwise judicially-noticeable facts, the Court does
not take into account facts outside the Complaint in reaching
its final holding that Mr. Trump’s tweet is a non-actionable
opinion that cannot be the subject of a defamation claim.

App.20a
the Complaint of Ms. Clifford’s economic well-being.
(See Special Motion at 13-14.) In making its ruling, the
Court takes no position as to any argument concerning
the purported benefit that Ms. Clifford received as a
result of the tweet in question. The remainder of
Defendant’s arguments are properly brought at the
present stage of litigation.
C. Defendant’s Special Motion to Dismiss/Strike
Is Timely
The next threshold inquiry is whether the Special
Motion is timely. Plaintiff contends that it is not,
because Mr. Trump should have brought the Special
Motion within 60 days of May 23, 2018, as required
by the TCPA. This is the date on which Mr. Trump
waived service of Ms. Clifford’s defamation action.
(See Opposition at 7.)
The Court holds that although Mr. Trump may
not have complied with the filing deadline, there is
good cause to permit the Special Motion to proceed
given the procedural history of this case, which
includes a transfer to this Court from a district court
in the Southern District of New York.
Plaintiff’s argument concerning the applicability
of the 60-day deadline in federal court raises an
unresolved issue of law. Like the TCPA, California’s
anti-SLAPP statute contains a 60-day requirement.
No court in this Circuit, or the Fifth Circuit, has
ruled on whether an anti-SLAPP motion, brought as a
motion to dismiss as opposed to a motion for summary
judgment, is subject to the 60-day deadline. To be
sure, federal courts have held that the 60-day deadline
in California’s anti-SLAPP statute does not apply to
anti-SLAPP motions that are analogous to motions

App.21a
for summary judgment. See Metabolife Int’l, Inc. v.
Wornick, 264 F.3d 832, 846 (9th Cir. 2001) (citing
Rogers, 57 F. Supp. 2d at 982). The 60-day deadline is
a procedural rule under the Erie doctrine that conflicts
with Federal Rule of Civil Procedure 56. See Sarver
v. Chartier, 813 F.3d 891, 900 (9th Cir. 2016). This is
because the 60-day deadline seeks to limit discovery
and allow for anti-SLAPP motions at an early stage
of litigation, while Rule 56 seeks to promote discovery,
requiring motions for summary judgment after litigation has proceeded for some time. See id. As analyzed
above, however, Mr. Trump’s anti-SLAPP motion is
analogous to a motion to dismiss, not a motion for
summary judgment. The discovery rationale that
underpins a case like Metabolife International does
not exist here.
Nevertheless, the Court does not need to address
the applicability of the 60-day deadline to the Special
Motion because there is “good cause” to permit it to
proceed. See Schimmel v. McGregor, 438 S.W.3d 847,
856 (Tex. App. 2014) (holding that the TCPA allows a
court to waive the motion filing deadline where “good
cause” exists). Ms. Clifford initially filed her defamation
action in the Southern District of New York, and there
was some dispute as to whether that district was the
appropriate venue for this case. After briefing on the
matter, Ms. Clifford’s defamation action was transferred to this Court on August 8, 2018. After the
transfer, Defendant did not delay bringing this Special
Motion, filing it on August 27, 2018, nineteen days
after the transfer and well-within the 21-day deadline
in which a defendant must normally file a responsive
pleading after a plaintiff files a complaint. See Fed.
Rule Civ. P. Rule 12(a). Importantly, the instant case

App.22a
did not proceed in any material respect after Plaintiff’s
initial filing of the Complaint in April 2018. This
limits the prejudice that Plaintiff may face from an
untimely anti-SLAPP motion. See New.Net, Inc. v.
Lavasoft, 356 F. Supp. 2d 1090, 1100 (C.D. Cal.
2004). Defendant’s filing of this Special Motion after
the 60-day deadline also does not frustrate the TCPA’s
purpose of dismissing improper lawsuits at an early
stage of litigation. See id. (holding that one purpose
of California’s 60-day deadline for anti-SLAPP motions was to dismiss lawsuits early in litigation).
Accordingly, “good cause” exists to allow Defendant
to proceed with this Special Motion, even if the filing
did not comply with the TCPA’s 60-day deadline.
D. Standard Under the TCPA
Having determined (1) that the TCPA applies to
the Special Motion and Ms. Clifford’s defamation action, (2) that this Court treats the Special Motion as
analogous to a motion to dismiss under Federal Rule
of Civil Procedure 12(b)(6), and (3) that there is “good
cause” to permit the Special Motion after the expiration
of 60 days from the initial filing of the Complaint,
the Court next applies the substantive requirements
of the TCPA to the Special Motion and the allegations
in the Complaint.
Texas offers robust protection for the freedom of
speech. The TCPA, like analogous anti-SLAPP statutes
in other jurisdictions including California, seeks to
“encourage and safeguard the constitutional rights of
persons to petition, speak freely, associate freely, and
otherwise participate in government to the maximum
extent permitted by law and, at the same time, protect
the rights of a person to file meritorious lawsuits for

App.23a
demonstrable injury.” Tex. Civ. Prac. & Rem. Code
§ 27.002.
Analysis of an anti-SLAPP motion under the
TCPA proceeds in three steps. First, a defendant must
show, by a preponderance of the evidence, that a
plaintiff’s complaint is based on, relates to, or is in
response to the defendant’s exercise of: (1) the right
of free speech; (2) the right to petition; or (3) the
right of association. See Tex. Civ. Prac. & Rem. Code
§ 27.005(b); In re Lipsky, 460 S.W.3d 579, 586 (Texas
2015). The TCPA defines “exercise of the right of
free speech” as “a communication made in connection
with a matter of public concern.” Tex. Civ. Prac. &
Rem. Code § 27.001(3). A communication includes “the
making or submitting of a statement or document in
any form or medium, including oral, visual, written,
audiovisual, or electronic.” Id. § 27.001(1). A “matter
of public concern” includes an issue related to: “(A)
health or safety; (B) environmental, economic, or community well-being; (C) the government; (D) a public
official or public figure; or (E) a good, product, or service
in the marketplace.” Id. § 27.001(7). Second, the burden
then shifts to the plaintiff to “establish[] by clear and
specific evidence a prima facie case for each essential
element of the claim in question.” Id. § 27.005(c). Third,
the defendant can still prevail under the TCPA if
he/she “establishes by a preponderance of the evidence
each essential element of a valid defense” to the
plaintiff’s claim. Id. § 27.005(d). See also ExxonMobil
Pipeline Company v. Coleman, 512 S.W.3d 895, 89899 (summarizing the standard under the TCPA).
Here, Defendant’s Special Motion does not allege
any defenses to plaintiff’s defamation claim. The Court

App.24a
addresses the other two steps of the TCPA analysis
in turn.
1. Plaintiff’s Defamation Lawsuit Relates
to Defendant’s Right of Free Speech
There is little dispute that Ms. Clifford’s Complaint
relates to Mr. Trump’s exercise of his right of free
speech on an issue of public concern. In reaching this
conclusion, the Court is mindful of the fact that
Texas “look[s] to the entire communication as well as
the context of the communication in which the allegedly
defamatory statement is made.” Cruz v. Van Sickle,
452 S.W.3d 503, 514 (Tex. App. 2014). Here, the statement at issue is Mr. Trump’s reaction to Plaintiff’s
release of the sketch of a person who threatened
Plaintiff in connection with a purported affair that
she had with Mr. Trump. Although Mr. Trump was
not the President at the time of the purported affair
or the purported threat that Plaintiff received, Mr.
Trump is now the President and was the President
at the time of the tweet. Moreover, Mr. Trump issued
the tweet in the context of Plaintiff publicly styling
herself as an adversary to the President, including in
filings before this Court. (See, e.g., First Amended
Complaint in Stephanie Clifford v. Donald Trump et
al. at ¶ 17, No. 2:18-cv-02217-SJO-FFM (arguing that
“Mr. Trump, with the assistance of his attorney Mr.
Cohen, aggressively sought to silence Ms. Clifford as
part of an effort to avoid her telling the truth, thus
helping to ensure he won the Presidential Election”).)
The tweet in question, therefore, relates to an issue
involving a public official on a matter of public concern.
See id. (holding that the TCPA applies to a defamation
claim involving “a public official or public figure,”
including a candidate for judicial office). Accordingly,

App.25a
the TCPA applies to the Special Motion To Dismiss/
Strike.
2. Plaintiff Fails to Establish a Prima
Facie Case for Defamation
The Court next analyzes whether Plaintiff has
established a prima facie case for defamation. To prevail
on a cause of action for defamation under Texas law,
Plaintiff must allege that: (1) Mr. Trump published
a false statement; (2) that defamed Ms. Clifford; (3)
with the requisite degree of fault regarding the truth
of the statement (negligence if Ms. Clifford is a private
individual or malice if Ms. Clifford is a public individual); and (4) damages (unless the statement constitutes defamation per se). See D Magazine Partners,
L.P. v. Rosenthal, 529 S.W.3d 429, 434 (Tex. 2017).
a. False Statement
In the Special Motion, Mr. Trump argues that the
tweet at issue is a non-actionable opinion, not a statement of fact about Ms. Clifford. (Special Motion at 9.)
“Expressions of opinion may be derogatory and disparaging; nevertheless they are protected by the First
Amendment of the United States Constitution and by
article I, section 8 of the Texas Constitution.” Shaw
v. Palmer, 197 S.W.3d 854, 857 (Tex. App. 2006).
The Court agrees with Mr. Trump’s argument
because the tweet in question constitutes “rhetorical
hyperbole” normally associated with politics and public
discourse in the United States. The First Amendment
protects this type of rhetorical statement.
“It is well settled that ‘the meaning of a publication, and thus whether it is false and defamatory,

App.26a
depends on a reasonable person’s perception of the
entirety of a publication and not merely on individual
statements.” See Bentley v. Bunton, 94 S.W.3d 561,
579 (Tex. 2002) (quoting Turner v. KTROK Television,
Inc., 38 S.W.3d 103, 115 (Tex. 2000)). To assess whether
a statement is “rhetorical hyperbole,” this Court looks
to the statement “as a whole in light of the surrounding
circumstances and based upon how a person of ordinary
intelligence would perceive it.” Campbell v. Clark, 471
S.W.3d 615, 625 (Tex. App. 2015). Because Mr. Trump’s
tweet involves a matter of public concern, including
purported acts committed by the now President of the
United States, the Court applies the following three
principles to determine if the tweet is actionable for
defamation (the “Bentley/ Milkovich” analysis). See
Bentley, 94 S.W.3d at 580. See also Milkovich v. Lorain
Journal Co., 497 U.S. 1, 19 (1990) (setting out the
standard summarized below).
1.

A statement on matters of public concern
must be provable as false before there can
be liability for defamation.

2.

The United States Constitution protects
statements that cannot reasonably be interpreted as stating actual facts about an
individual made in debate over public matters
in order to provide assurance that public
debate will not suffer for lack of imaginative
expression or the rhetorical hyperbole which
has traditionally added much to the discourse
of the United States.

3.

Where a statement of “opinion” on a matter
of public concern reasonably implies false
and defamatory facts regarding public figures
or officials, those individuals must show that

App.27a
such statements were made with knowledge
of their false implications or with reckless
disregard of their truth, and where such a
statement involves a private figure on a
matter of public concern, a plaintiff must
show that the false connotations were made
with some level of fault.
Mr. Trump’s tweet stated as follows: “A sketch years
later about a nonexistent man. A total con job, playing
the Fake News Media for Fools (but they know it)!”
When the first step in the Bentley/Milkovich analysis
is applied to this tweet, Plaintiff correctly points out
that Mr. Trump’s tweet contains two verifiably true/
false statements: (1) that the man who threatened Ms.
Clifford in 2011 does not exist and therefore, that
Plaintiff is lying about her encounter with him; and
(2) that Ms. Clifford is engaging in a “con job” or is
lying to Mr. Trump, the public, and the media about
the threat (and by implication her affair with Mr.
Trump). If the man who threatened Ms. Clifford in
2011 does exist, or if Ms. Clifford is not lying to Mr.
Trump, the public, and the media about the threats
that she received or her affair with Mr. Trump, Mr.
Trump’s tweet would be verifiable as false.
Plaintiff’s argument crumbles when it comes to
the second step in the Bentley/Milkovich analysis. Mr.
Trump’s tweet constitutes “rhetorical hyperbole,” which
is “‘extravagant exaggeration [that is] employed for
rhetorical effect.’” Backes v. Misko, 486 S.W.3d 7, 26
(Tex. App. 2015) (quoting Am. Broad. Cos. v. Gill, 6
S.W.3d 19, 30 (Tex. App. 1999)). Specifically, Mr.
Trump’s tweet displays an incredulous tone, suggesting
that the content of his tweet was not meant to be
understood as a literal statement about Plaintiff.

App.28a
Instead, Mr. Trump sought to use language to challenge Plaintiff’s account of her affair and the threat
that she purportedly received in 2011. As the United
States Supreme Court has held, a published statement that is “pointed, exaggerated, and heavily laden
with emotional rhetoric and moral outrage” cannot
constitute a defamatory statement. See Milkovich v.
Lorain Journal Co., 497 U.S. 1, 32 (1990).
Mr. Trump also issued the tweet in the context
of Plaintiff presenting herself as a political adversary
to the President. Rehak Creative Services, Inc. v. Witt
is instructive in this regard. See 404 S.W.3d 716 (Tex.
App. 2013), disapproved on other grounds by In re
Lipsky, 460 S.W.3d 579 (Tex. 2015). In Rehak, an
advertising agency that worked with Jim Murphy, a
state representative serving in the Texas House of
Representatives, sued Ann Witt, a candidate who ran
against Murphy in the Republican primary. Id. at 722.
The advertising agency sued Witt for defamation on
the grounds that Witt’s website contained a series of
defamatory statements against Murphy, including
Witt’s accusations that Murphy “sidestepped” the Texas
Constitution by serving as a legislator while receiving
payment as a consultant. Id. at 720. Witt’s website
also compared Murphy to a character in the book and
musical, How to Succeed in Business Without Really
Trying, accused Murphy of “ripping off taxpayers,”
and stated that among Jim Murphy’s “sleazy steps”
to success included “STEP 6: Reward your supporters
with government contracts.” Id. at 721. The Texas
Court of Appeals held that none of the statements on
Witt’s website constituted defamation in large part
because Witt’s “website’s tone” and the “campaign context” of the statements suggested that the statements

App.29a
constituted “rhetorical hyperbole” that was part of
politics. Id. at 730. The website “demonstrate[d] an
attempt to deliver a political message about the use
of public money in an exaggerated, provocative and
amusing way,” expression that lies at “the heart of
the First Amendment.” Id. at 730. See also Campbell v.
Clark, 471 S.W.3d 615, 625 (Tex. App. 2015) (collecting
cases on “rhetorical hyperbole” in the political context).
The instant case is similar to Rehak in that Mr.
Trump, as President, made a hyperbolic statement
against a person who has sought to publicly present
herself as a political adversary to him. In filings before
this Court, Ms. Clifford has challenged the legitimacy
of Mr. Trump’s victory in the 2016 Presidential election.
Mr. Trump’s tweet served as a public rejoinder to
allegations made by Plaintiff. If this Court were to
prevent Mr. Trump from engaging in this type of
“rhetorical hyperbole” against a political adversary, it
would significantly hamper the office of the President.
Any strongly-worded response by a president to another
politician or public figure could constitute an action
for defamation. This would deprive this country of the
“discourse” common to the political process. In short,
should Plaintiff publicly voice her opinions about Mr.
Trump, Mr. Trump is entitled to publicly voice nonactionable opinions about Plaintiff. To allow Plaintiff
to proceed with her defamation action would, in effect,
permit Plaintiff to make public allegations against
the President without giving him the opportunity to
respond. Such a holding would violate the First
Amendment.
Mr. Trump also made a one-off rhetorical comment, not a sustained attack on the veracity of
Plaintiff’s claims. This distinguishes the instant case

App.30a
from other cases where courts have deter mined
that public statements constituted defamation.
In Bentley, for example, the host of a call-in talk show
on a public-access channel repeatedly accused a judge
of being corrupt. See Bentley, 94 S.W.3d at 584. When
confronted about the veracity of the allegations, the
talk show host doubled down, falsely claiming that he
had proof of the judge’s corruption, including public
records and records of conversations with courthouse
employees. See id. The Texas Supreme Court held that
while a “single, excited reference to [the judge’s
corruption] might be taken to be rhetorical hyperbole . . . [the host’s] characterization of [the judge’s]
conduct as criminal is only part of [the host’s] efforts
over many months to prove [the judge] corrupt.” Id.
at 581. Here, Mr. Trump’s tweet falls far more in line
with a “single, excited reference.” Unlike the defendant
in Bentley, Mr. Trump provided no support for his
views in the tweet nor did not he repeat the allegations in the tweet.
Accordingly, the Court grants the Special Motion
because Mr. Trump’s statement constituted “rhetorical
hyperbole” that is protected by the First Amendment.
b. Actual Malice or Reckless Disregard
for the Truth
Having determined that Mr. Trump’s tweet is nonactionable, the Court’s analysis of the Special Motion
ends. In the interest of completeness, the Court briefly
addresses a few of the other arguments made by the
parties in the briefing.
The parties spend some time debating whether
Mr. Trump acted with “actual malice” or “reckless
disregard for the truth” in issuing the tweet in ques-

App.31a
tion. Assuming that Plaintiff is a “public figure,”
Plaintiff would have to show that Defendant acted
with “actual malice” or “reckless disregard for the
truth” to prevail on a cause of action for defamation.
See Bentley, 94 S.W.3d at 580.
Plaintiff’s focus on the actual malice argument
comes as no surprise because Plaintiff stands on thin
ice in asserting that Mr. Trump’s tweet is an actionable statement. Instead, Plaintiff seeks to use her
defamation action to engage in a “fishing expedition”
concerning the conclusory allegations in the Complaint.
The Court will not permit Plaintiff to exploit the
legal process in this way.
Specifically, Plaintiff contends that she needs to
conduct discovery to determine if Mr. Trump was
involved in the 2011 threat against her or if he
purposefully avoided learning about the 2011 threat.
See Opposition at 11. Plaintiff believes that discovery
pertaining to these issues will help her to establish
that Mr. Trump acted with actual malice or reckless
disregard for the truth (i.e. if Ms. Clifford can provide
evidence showing that Mr. Trump knew of the 2011
threat, then he tweeted a lie when he challenged
Plaintiff’s reporting of the 2011 threat). (See Transcript
of Proceedings at 29:23-30:4.) However, Plaintiff’s
reasoning is entirely circular. She assumes that Mr.
Trump knew of the 2011 threat, argues in her
Complaint and her briefing that Mr. Trump knew of
the 2011 threat, and then asks this Court for discovery
to prove that Mr. Trump knew of the 2011 threat. In
doing so, Plaintiff does not allege facts establishing
how Mr. Trump knew or did not know about the
2011 threat in the first place. Plaintiff must do this
to sustain a cause of action for defamation.

App.32a
c. Damages
Defendant’s Special Motion also alleges that
Plaintiff has not adequately pleaded damages. (Special
Motion at 11-14.) The Court declines to address this.
As with the issue of actual malice, the Court does not
need to reach the damages question because it grants
the Special Motion on other grounds.
E. Leave to Amend
Having granted the Special Motion, the Court next
determines if it should grant Plaintiff leave to amend
the Complaint. While recognizing that courts in this
Circuit sometimes do grant plaintiffs the opportunity to amend a complaint before granting an antiSLAPP motion to strike, the Court holds that Ms.
Clifford should not have this opportunity because any
amendment would be futile. See Verizon Delaware, Inc.
v. Covad Communications Co., 377 F.3d 1081, 1091
(2004) (“[G]ranting a defendant’s anti-SLAPP motion
to strike a plaintiff’s initial complaint without granting
the plaintiff leave to amend would directly collide with
Fed. R. Civ. P. 15(a)’s policy favoring liberal amendment.”); Gardner v. Martino, 563 F.3d 981, 992 (9th
Cir. 2009) (denying leave to amend on futility grounds).
The Court holds that Mr. Trump’s tweet is “rhetorical hyperbole” and is protected by the First Amendment. Plaintiff cannot amend the Complaint in a way
that challenges this holding. During argument on this
matter, Plaintiff suggested that she could amend her
Complaint to “shore up the malice allegations” and to
“provide context for the statement to show that, in fact,
it was not political nature at the time it was made.”
(Transcript of Proceedings at 44: 8-13.) The former
amendments are futile because this Court rules that

App.33a
Mr. Trump’s tweet is protected by the First Amendment. The issue of malice is irrelevant to this holding.
The latter amendments are futile because there is no
way for Plaintiff to amend the Complaint to transform the tweet from “rhetorical hyperbole” into an
actionable statement. See Gardner, 563 F.3d at 992.
“A party cannot amend pleadings to ‘directly contradic[t] an earlier assertion made in the same proceeding.’” Airs Aromatics, LLC v. Opinion Victoria’s Secret
Stores Brand Mgmt., Inc., 744 F.3d 595, 600 (9th Cir.
2014) (quoting Russell v. Rolfs, 893 F.2d 1033, 1037
(9th Cir.1990)). Plaintiff cannot change Mr. Trump’s
tweet or the basic context of the tweet. Nor can
Plaintiff withdraw factual allegations that she has
made in pleadings before this Court. In the other
litigation before this Court, Ms. Clifford argues that
Mr. Trump sought to silence her as a strategy to win
the Presidential election, a clear argument against
the legitimacy of Mr. Trump’s Presidency. (See First
Amended Complaint in Stephanie Clifford v. Donald
Trump et al. at ¶ 17, No. 2:18-cv-02217-SJO-FFM.)
Mr. Trump issued the tweet as a rejoinder against an
individual challenging him in the public arena. This is
the definition of protected rhetorical hyperbole. The
Court denies Plaintiff leave to amend the Complaint.
F. Attorney’s Fees
Having granted the Special Motion and denied
Plaintiff leave to amend, the Court finally holds that
Defendant is entitled to attorney’s fees. Texas law is
unambiguous that “the TCPA requires an award of
‘reasonable attorney’s fees’ to the successful movant.”
Sullivan v. Abraham, 488 S.W.3d 294, 299 (Tex. 2016).
“A ‘reasonable’ attorney’s fee ‘is one that is not excessive

App.34a
or extreme, but rather moderate or fair.’” Id. (quoting
Garcia v. Gomez, 319 S.W.3d 638, 642 (Tex.2010)).
III. Ruling
For the foregoing reasons, the Court GRANTS
Defendant’s Special Motion To Strike/Dismiss.
Defendant is entitled to attorney’s fees under the
Texas Citizen Participation Act. Should Defendants
move for attorneys’ fees, the motion must be filed
within fourteen (14) days from the date of this order.
The Court DENIES AS MOOT Defendant’s Motion
To Dismiss.
IT IS SO ORDERED.

App.35a
ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT
DENYING PETITION FOR REHEARING EN BANC
(SEPTEMBER 10, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
STEPHANIE CLIFFORD, AKA STORMY DANIELS,

Plaintiff-Appellant,
v.
DONALD J. TRUMP,

Defendant-Appellee.
________________________
No. 18-56351
D.C. No. 2:18-cv-06893-SJO-FFM
Central District of California, Los Angeles
Before: THOMAS, Chief Judge, and WARDLAW
and NGUYEN, Circuit Judges.
Appellant’s motion to take judicial notice of 1)
a December 11, 2018 district court order regarding
attorney fees, costs, and sanctions in case number CV
18-06893-SJO, and 2) submitted printouts of President Trump’s official Twitter account is GRANTED.
The panel has unanimously voted to deny appellant’s petition for rehearing en banc. The full court
has been advised of the petition and no active judge

App.36a
has requested a vote on whether to rehear the matter
en banc. Fed. R. App. P. 35. The petition for rehearing
en banc is REJECTED.

App.37a

TEXAS CIVIL PRACTICE AND REMEDIES CODE,
RELEVANT SECTIONS
TEXAS CIVIL PRACTICE AND REMEDIES CODE
Chapter 27. Actions Involving the Exercise of Certain
Constitutional Rights
§ 27.001. Definitions
In this chapter:
(1) “Communication” includes the making or
submitting of a statement or document in any
form or medium, including oral, visual, written,
audiovisual, or electronic.
(2) “Exercise of the right of association” means a
communication between individuals who join
together to collectively express, promote, pursue,
or defend common interests.
(3) “Exercise of the right of free speech” means a
communication made in connection with a matter
of public concern.
(4) “Exercise of the right to petition” means any
of the following:
(A) a communication in or pertaining to:
(i)

a judicial proceeding;

(ii)

an official proceeding, other than a judicial proceeding, to administer the law;

(iii) an executive or other proceeding before
a department of the state or federal

App.38a
government or a subdivision of the state
or federal government;
(iv) a legislative proceeding, including a
proceeding of a legislative committee;
(v)

a proceeding before an entity that
requires by rule that public notice be
given before proceedings of that entity;

(vi)

a proceeding in or before a managing
board of an educational or eleemosynary
institution supported directly or indirectly from public revenue;

(vii) a proceeding of the governing body of
any political subdivision of this state;
(viii) a report of or debate and statements
made in a proceeding described by Subparagraph (iii), (iv), (v), (vi), or (vii); or
(ix)

a public meeting dealing with a public
purpose, including statements and discussions at the meeting or other matters
of public concern occurring at the
meeting;

(B) a communication in connection with an issue
under consideration or review by a legislative,
executive, judicial, or other governmental
body or in another governmental or official
proceeding;
(C) a communication that is reasonably likely
to encourage consideration or review of an
issue by a legislative, executive, judicial, or
other governmental body or in another
governmental or official proceeding;

App.39a
(D) a communication reasonably likely to enlist
public participation in an effort to effect
consideration of an issue by a legislative,
executive, judicial, or other governmental
body or in another governmental or official
proceeding; and
(E) any other communication that falls within the
protection of the right to petition government
under the Constitution of the United States
or the constitution of this state.
(5) “Governmental proceeding” means a proceeding, other than a judicial proceeding, by an
officer, official, or body of this state or a political
subdivision of this state, including a board or
commission, or by an officer, official, or body of
the federal government.
(6) “Legal action” means a lawsuit, cause of action,
petition, complaint, cross-claim, or counterclaim
or any other judicial pleading or filing that
requests legal or equitable relief.
(7) “Matter of public concern” includes an issue
related to: health or safety; environmental, economic, or community wellbeing; the government;
a public official or public figure; or a good, product,
or service in the marketplace.
(8) “Official proceeding” means any type of
administrative, executive, legislative, or judicial
proceeding that may be conducted before a
public servant.
(9) “Public servant” means a person elected,
selected, appointed, employed, or otherwise designated as one of the following, even if the person has

App.40a
not yet qualified for office or assumed the person’s
duties:
(A) an officer, employee, or agent of government;
(B) a juror;
(C) an arbitrator, referee, or other person who
is authorized by law or private written
agreement to hear or determine a cause or
controversy;
(D) an attorney or notary public when participating in the performance of a governmental
function; or
(E) a person who is performing a governmental
function under a claim of right but is not
legally qualified to do so.
§ 27.002. Purpose
The purpose of this chapter is to encourage and
safeguard the constitutional rights of persons to
petition, speak freely, associate freely, and otherwise participate in government to the maximum
extent permitted by law and, at the same time,
protect the rights of a person to file meritorious
lawsuits for demonstrable injury.
§ 27.003. Motion to Dismiss
(a) If a legal action is based on, relates to, or is
in response to a party’s exercise of free speech,
right to petition, or right of association, that
party may file a motion to dismiss the legal
action.
(b) A motion to dismiss a legal action under this
section must be filed not later than the 60th day

App.41a
after the date of service of the legal action. The
court may extend the time to file a motion under
this section on a showing of good cause.
(c) Except as provided by Section 27.006(b), on
the filing of a motion under this section, all discovery in the legal action is suspended until the
court has ruled on the motion to dismiss.
§ 27.004. Hearing
(a) A hearing on a motion under Section 27.003
must be set not later than the 60th day after the
date of service of the motion unless the docket
conditions of the court require a later hearing,
upon a showing of good cause, or by agreement
of the parties, but in no event shall the hearing
occur more than 90 days after service of the motion
under Section 27.003, except as provided by Subsection (c).
(b) In the event that the court cannot hold a
hearing in the time required by Subsection (a),
the court may take judicial notice that the court’s
docket conditions required a hearing at a later
date, but in no event shall the hearing occur more
than 90 days after service of the motion under
Section 27.003, except as provided by Subsection
(c).
(c) If the court allows discovery under Section
27.006(b), the court may extend the hearing date
to allow discovery under that subsection, but in
no event shall the hearing occur more than 120
days after the service of the motion under Section
27.003.

App.42a
§ 27.005. Ruling
(a) The court must rule on a motion under Section
27.003 not later than the 30th day following the
date of the hearing on the motion.
(b) Except as provided by Subsection (c), on the
motion of a party under Section 27.003, a court
shall dismiss a legal action against the moving
party if the moving party shows by a preponderance of the evidence that the legal action
is based on, relates to, or is in response to the
party’s exercise of:
(1) the right of free speech;
(2) the right to petition; or
(3) the right of association.
(c) The court may not dismiss a legal action under
this section if the party bringing the legal action
establishes by clear and specific evidence a prima
facie case for each essential element of the claim
in question.
(d) Notwithstanding the provisions of Subsection
(c), the court shall dismiss a legal action against
the moving party if the moving party establishes
by a preponderance of the evidence each essential
element of a valid defense to the nonmovant’s
claim.
§ 27.006. Evidence
(a) In determining whether a legal action should
be dismissed under this chapter, the court shall
consider the pleadings and supporting and opposing affidavits stating the facts on which the
liability or defense is based.

App.43a
(b) On a motion by a party or on the court’s own
motion and on a showing of good cause, the court
may allow specified and limited discovery relevant
to the motion.
§ 27.007. Additional Findings
(a) At the request of a party making a motion
under Section 27.003, the court shall issue findings
regarding whether the legal action was brought
to deter or prevent the moving party from exercising constitutional rights and is brought for
an improper purpose, including to harass or to
cause unnecessary delay or to increase the cost
of litigation.
(b) The court must issue findings under Subsection (a) not later than the 30th day after the date
a request under that subsection is made.
§ 27.008. Appeal
(a) If a court does not rule on a motion to dismiss
under Section 27.003 in the time prescribed by
Section 27.005, the motion is considered to have
been denied by operation of law and the moving
party may appeal.
(b) An appellate court shall expedite an appeal
or other writ, whether interlocutory or not, from
a trial court order on a motion to dismiss a legal
action under Section 27.003 or from a trial court’s
failure to rule on that motion in the time prescribed by Section 27.005.
***

App.44a
§ 27.009. Damages and Costs
(a) If the court orders dismissal of a legal action
under this chapter, the court shall award to the
moving party
(1) court costs, reasonable attorney’s fees, and
other expenses incurred in defending against
the legal action as justice and equity may
require; and
(2) sanctions against the party who brought the
legal action as the court determines sufficient
to deter the party who brought the legal
action from bringing similar actions described
in this chapter.
(b) If the court finds that a motion to dismiss filed
under this chapter is frivolous or solely intended
to delay, the court may award court costs and
reasonable attorney’s fees to the responding party.
§ 27.010. Exemptions
(a) This chapter does not apply to an enforcement
action that is brought in the name of this state
or a political subdivision of this state by the
attorney general, a district attorney, a criminal
district attorney, or a county attorney.
(b) This chapter does not apply to a legal action
brought against a person primarily engage in
the business of selling or leasing goods or services,
if the statement or conduct arises out of the sale
or lease of goods, services, or an insurance product,
insurance services, or a commercial transaction
in which the intended audience is an actual or
potential buyer or customer.

App.45a
(c) This chapter does not apply to a legal action
seeking recovery for bodily injury, wrongful death,
or survival or to statements made regarding that
legal action.
(d) This chapter does not apply to a legal action
brought under the Insurance Code or arising out
of an insurance contract.
§ 27.011. Construction
(a) This chapter does not abrogate or lessen any
other defense, remedy, immunity, or privilege
available under other constitutional, statutory,
case, or common law or rule provisions.
(b) This chapter shall be construed liberally to
effectuate its purpose and intent fully.

